■i?o°asoi
IN THE
SUPREME COURT OF THE UNITED STATES

SHAN^ON-RILEY

— PETITIONER H

t\ V!' ! V' r. L■!

(Your Name)

MAP

N

I

vs.
CARRIE KATHLEEN MEEHAN
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

FILED
NOV 2 k 2020

THE SUPREME COURT OF SOUTH CAROLINA

SUPREEMEFCo{fRYLny;K

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

SHANNON RILEY

(Your Name)
1368 SMITHS LAWN
(Address)
AIKEN, SC

29801

(City, State, Zip Code)
(815)

814-5179

(Phone Number)

QUESTION(S) PRESENTED
(1) Has the "public interest" requirement
pursuant to South Carolina Appellate Court
Rules (SCACR) 245(a) been met under the
Full Faith and Credit Clause of the U_.S'.
Constitution, Article 1, Section IV,
to entertain review of a petition for
a Writ of Mandamus' in the Court' s. original jurisdiction?
(2) Has the "public interest" requirement
pursuant to Key v Currie, 305 S.C. 115, 406
S.E. 2d 3 56 (1991) ...been met under the
Full Faith and Credit Clause of the U.S.
Constitution, Article 1, Section IV to
entertain review of a petition for a Writ
of Mandamus in the Court's original jurisdiction?
(3) Has the Supreme Court of South Carolina impeached
Petitioner's due process under the Fourteenth Amendment
when it failed to entertain a Writ of Mandamus relating
to "public interest" legislated by"Congress under
the.Full Faith and Credit Clause, Article 1, Section
IV, of the U.S. Constitution.?

TABLE OF AUTHORITIES CITED

CASES
Key v Currie
395 S.C. 115, 406 S.E, 2d 356 (1991)
Edwards v State
383, S.C. 2, 678 -S.E._ 2d 412 (2009) '

PAGE NUMBER

7 ■'“8

' 9

Willimon v City of Greenville
243 S.C. 82, 6-87, 132 S.E. 2d 169, 170-71: (1963)
Edwards
383, S.C. 97, 678 S.E. 2d, 420
Blalock v Johnson
. .
180 S.C., 40, 50, 185 S.E. 51, 55 (1936)

9
10
10

STATUTES AND RULES
Statue of Frauds
Kansas Open Records Act
K.S.A. 45-215 et-. seq-.

5
6

South Carolina Appellate Gdirf t- Ru 1 e (SCARP) 2 4 5 (a)

7

South Carolina Code of Laws
Chapter 35-Judgments and Decrees Generally
Section 15-35-920 Filing of Foreign Judgment and
affidavit

OTHER

6

TABLE OF CONTENTS
OPINIONS BELOW

1
2

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-8*

REASONS FOR GRANTING THE WRIT

9-10.

CONCLUSION

10s

INDEX TO APPENDICES
APPENDIX A
Copy of decision from Supreme Court of South Carolina

APPENDIX B
Letter from Supreme Court of South Carolina regarding
Motion for Reconsideration

APPENDIX C
Final Order from Aiken Court of Common Pleas denying
Motion for Reconsideration.

APPENDIX D
APPENDIX E
APPENDIX F

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
k ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A
to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
|x] is unpublished.
The opinion of the Aiken Court of Common Pleas
appears at Appendix__ 9__to the petition and is
[ ] reported at
J or,
[ ] has been designated for publication but is not yet reported; or,
tx] is unpublished.
1.

court

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was________ :______________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date)
(date) on
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix__ h___

\.M/4./2020.

[X] A timely petition for rehearing was thereafter denied on the following date:
11/17/2020
} and a COpy 0f the order denying rehearing
B
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
to and including____
(date) on
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

'

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Full Faith and Credit Clause, Article IV, Section, U.S,
Constitution
Fourteenth Amendment U.S. Constitution
S.C. Constitution
.
_ .
Art V, 5 and S.C. Code Ann 14-3-3.10 (1976)

3

LIST OF PARTIES

lx ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
IN THE DISTRICT COURT OF JOHNSON COUNTY, KANSAS
CARRIE KATHLEEN MEEHAN , vPEANTIFF V"-SHANNON RILEYDEFENDANT
18CV00490
Case No.
Division No. 11
IN THE COURT OF APPEALS OF THE STATE OF KANSAS
CARRIE KATHLEEN MEEHAN, APPELLEE V SHANNON RILEY, APPELLANT
Case No. 122,38Q
CARRIE KATHLEEN MEEHAN, PLANTIFF. v SHANNON RILEY, DEFENDANT
State of South Carolina, County of Aiken In the Court
of Common Pleas, Case No,2019CP0200950

STATEMENT OF THE CASE
There are two components to this case.

The Kansas case

and the South Carolina Case.
THE KANSAS CASE
Petitioner, at all time a resident of south Carolina,
was illegally sued by Respondent, at all times a resident
S
of Kansas for alleged breach of contract, where no contract
exsists and awarded actual damages of $40,000, and puntiive
damages of $80,000, totaling $120,000, and whereby the District
Court lacked subject matter jurisdiction to hear the
specific kind of case that was brought to the Court,
in this case, breach of contract, where

no contract

between the two parties exsists relating to the sale
of two Irish sport horses.
After seeing horses on the internet, Petitioner
and Respondent traveled to Ireland where Respondent
purchased four Irish sport horses which were given
to Petitioner in South Carolina to board/train/sell
without a legal contract between the parties enforceable
by law.

Two of the horses were sold.

The other two,

and the issues surrounding their sale resulting in
Respondent' s loss through an alleged breach of contract
and filing a sworn affidavit in Johnson County District
Court, Kansas alleging breach of contract is the bases

4

of this case.

The District Court lacking subject

matter jurisdiction/venue to hear a breach of contract
case wjere no written contract exsists required -^by
the Statue of Frauds.
The District Court finding subject matter jurisdiction/
exsisted based on the sworn affidavit and issued an Order
granting Default Judgment on 12/8/18.

On 1/15/19, the

Court issued a Nunc Pro Tunc Order, correcting the
previous Order as to damages. After being served with
Pro Nunc Tunc Order granting Default Judgment, Petitioner
filed a Motion to Vacate same.

Both Orders granting

default judgment were electronically filed in Aiken
Court of Common Pleas, South Carolina on 4/22/19,
followed by a Motion to Execute Foreign Judgment in
South Carolina and 8 months prior to a Final Order of
Judgment filed 12/5/19, and 8 months prior to Petitioner's
appeal filed 12/16/19.

In the Final Order, the District

Court adjudging aSf;part ’ofuthebOrder that' the Nunc Pro
Tunc Order of 1/15/19 was a final order.
THE SOUTH CAROLINA CASE
Respondent filed to Execute a Foreign Judgment in Aiken
on 4/22/19 on the Nunc Pro Tunc Order Correcting Default
Judgment as to damages, previously omitted from the
Kansas Court Order Granting Default Judgment filed 12/8/18.
When in fact, The Final Order of Judgment from Kansas
was issued 12/5/19.

Petitioner's appeal from the Final

5

Order was filed 12/16/2019, which is still pending.
Pursuant to South Carolina law, Section 15-35-920,
Filing of foreign judgment and affidavit,

(a) requires

that the affidavit'filed with the clerk states the foreign
judgment is final, and whether further contested.

Contested

judgments include notice of appeal has been filed, or an
appeal is pending.

At the time Respondent filed to

Execute foreign judgment, Petitioner's appeal had not
been filed, because the no final order in the Kansas
case had been issued.

Respondent has no legal standing

to Execute judgment and the South Carolina Court has
no subject matter jurisdiction to hear the case.
Petitioner's fourteenth amendment right to "due process"
impeached.
Pursuant to the Full Faith and Credit Clause of
the U.S. Constitution, Article IV, Section 1,

which addresses

1
duties that states within the United States have to respect
the "public acts, records and judicial proceedings of
every other state."

Here the Kansas Open Records Act,

K.S.A. 45-215 et. seq. reveal the Johnson County District
Court Records reflect a Final Order of Judgment filed 12/5/19.
Respondent's Motion to Execute Foreign Judgment, electronically
filed in South Carolina on 4/22/19, from a Nunc Pro.-Tunc
Order correcting default judgment violates Petitioner's
fourteenth amendment right to "due process'-1 "of the Clause.

6

After the Aiken Court filed it's judgment after
Petitioner's Motion for Reconsideration of the Final
Order on 2/3/20, Petitioner sought the original jurisdiction
of the South Carolina Supreme Court pursuant to Rule 245(a),
"When Appropriate. The Supreme Court will ■
not entertain matters m its original jur­
isdiction when the matter can be determined
in a lower court in the first instance, with­
out material prejudice to the.rights.of the
parties. If the public interest is involved,
or if special grounds of emergency or other
good reasons exsist why the original juris­
diction of the Supreme Court should be
exercised, the facts showing the reasons
must be stated in the petition."
..-I .1.

^

JiS; Jr*

\

V- 1

'

9

.

X

etitPetitioner believes that the public interest
to republic acts, records and judicial proceedings of
every other state" pursuant to the Full Faith and
Credit Clause are present here, and plead with
particularity in the Petition for Writ of Mandamus,
pursuant to Rule 65(f)(1), Remedial WTrits, ,which
states in part, "The motion shall be heard upon suchce
notice as the court may prescribe, and the court shall
proceed to hear and determine such motion as expeditiously
as the ends of justice require."
The-end'saofrjustice 'requirement have been impeached
when the 'Supreme Court issued its Order of 11/4/20,
declining to'entertain the Petition in the Court's
original jurisdiction and citing Key v Currie;

7

Joseph A„Keyy Plantiff v. Robert E Currie, Warden,
A.C.I, Parker Evatt, Commissioner, S.C.D.C.,
Defendants, 305 S.C. 115, 406 S.E. 2d 356(1991)
ORDER in part, "In recent months, the number of
petitions seeking to have this Court exercise its
original jurisdiction has increased dramatically.
We take this opportunity to emphasize the
limitations we have placed on our original
"Although Article V, 5, of the
jurisdiction.
South Carolina Constitution vests this Court
with the authority to issue extraorinary
writs and enterain actions in its original
jurisdiction, this Court's primary function
is to act as an appellate court to review
appeals from trial courts. In Rule 229,
SCACR, this Court has indicated it will not
entertain matters in its original jurisdiction
where the matter can be entertained in the trial
courts of this State. Only when there is an
extraordinary reason such as a question of sign
nificant public interest or an emergency will
this Court exercise its original jurisdiction."
In the Petition, the facts relating to "public interest
ahdrwhich omitted from review, would seriously effect the
iVimaterial prejudice to the rights of the parties;" pursuant
to Rule 245(a) are clearly present in the Petition.
"The Full Faith and Credit Clause, Art IV,
Sec 1, address the duties that states within
the United States have to respect to the "public
acts, records , and jidicial proceedings of every
other state. The public records of the Clerk
ofrthe Court, Johnson County District Court
refllct an Order of Final Judgment filed on
Decemger 5, 2019."

8

REASONS FOR GRANTING THE PETITION
"The Supreme Court {6f South Carolina) has the power
to issue writs of mandamus'pursuant to the State's
Constitution.

Edwards v State, 383 S.C. 2, 678 S.E.

2d 412 (2009) citing S.C. Const Art V, 5 and S.C.
Code Ann 14-3-310 (1976).

"The writ of mandamus is the

highest judicial writ known to the law and according
to long approved and well established authorities,
only issues in cases where there is a specific legal
right to be enforced or where there is a position
of duty to be performed, and there is no other
specific remedy."

Willimon v City of Greenville,

243, S.C. 82, 6-87, 132 S.E. 2d 169, 170-71; (1963).
The primary purpose of function d<6 a writ of
mandamus is to enforce an established right, and to
enforce a corresponding imperative duty created
to or imposed by law."

Id.

"It is designed to

promote justice, subject to certain well-defined quali­
fications."

Id.

Its principal "function is to command

and execute and exercise, and not to inquire and
adjudicate, therefore, it is not the purpose of the
writ to establish a legal right, but to enforce one
which has already been established."

id.

"For a writ of mandamus to issue, the following
must be shown;
the act,

(1) a duty of the Respondent to perform

(2) the ministerial nature of the act; (3)

9

(3) the Petitioner's specific legal right for which
discharge of the duty is necessary,- and (4) a lack of any
other legal remedy."
2d, 420.

Edwards, 383 S.C. 97, 678 S.E.

"When mandamus is warranted, "the judiciary c

cannot properly shrink from its duty."

Id.

(quoting

Blalock V Johnson, 180 S.C. 40, 50, 185 S.E. 51, 55 (1936).

CONCLUSION

The petition for a writ of certiorari should be granted.

RespectfullySubmitted,

Date:

November 22, 2020

10

